HHS/OIG, Audit -"Review of Medicaid Transportation Claims Made by School Health Providers in New York State,"(A-02-03-01008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Transportation Claims Made by School Health Providers in New York State," (A-02-03-01008)
August 31, 2004
Complete
Text of Report is available in PDF format (1.8 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Federal Medicaid payments for transportation services claimed by
695 school and preschool providers in New York were in compliance with Federal and State requirements.  We found that
97 of 110 transportation claims in our statistical sample did not comply with Federal and State requirements.  As
a result, we estimate that $17.2 million in Federal Medicaid funding was unallowable.  We also set aside other claims
totaling an estimated $35.8 million (Federal share) for consideration by CMS because Federal Medicaid law and regulations
require that services be documented but do not specify how services should be documented.  In addition to a financial
adjustment for $17.2 million, we recommended that the State work with the Centers for Medicare and Medicaid Services (CMS)to
resolve the $35.8 million in set-aside claims, provide proper guidance on Federal and State Medicaid criteria to schools
and preschools, reinforce the need for school health providers to comply with Federal and State requirements, and improve
its monitoring of school health providers’ transportation claims to ensure compliance with Federal and State requirements.